No. 20-8019
IN THE SUPREME COURT OF THE UNITED STATES
ROBERTO TORNER, PETITIONER
v.
UNITED STATES OF AMERICA

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MEMORANDUM FOR THE UNITED STATES IN OPPOSITION, via e-mail and firstclass mail, postage prepaid, this 14th day of July, 2021.
[See Attached Service List]

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
July 14, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to mailing
your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is acceptable to
you, please fax your brief to Charlene Goodwin, Supervisory Case Management Specialist, Office of the
Solicitor General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone
number is (202) 514-2217 or 2218.

20-8019
TORNER, ROBERTO
USA

GINO A. BARTOLAI, JR.
ASSISTANT FEDERAL PUBLIC DEFENDER
238 WILLIAM STREET
PITTSTON, PA 18640
570-654-3572

